IN THE

SUPREME COURT OF THE UNITED STATES

Supreme Court, U s'
FILED

N0V 1 9 2020
!
OFFICE OF the Cl few

JOSEPH J. BUTTERCASE,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEBRASKA SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

received
JAN-7®

jssysssssiJ f

76999
Joseph J. Buttercase
pro se Petitioner
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161

/

QUESTIONS PRESENTED
Due to Nebraska law governing procedures for postconviction relief being
inconsistent with traditional principles of fundamental fairness, the vast
majority of Nebraska prisoners fail to obtain proper testing by the state
courts of constitutional issues of the most numerous and important types, in
turn, prisoners usually do not receive any fact hearings on their allegations.
In light of the foregoing, this petition presents the following:
1.

Whether there is a federal constitutional right for a prisoner to be

released upon proof of actual innocence?
2.

Whether the state-law procedures for postconviction relief in Nebraska

are constitutionally inadequate in the hearing and determination of claims
from prisoners of violation of federal constitutional guarantees?
3.

Whether a pro se postconviction relief movant in Nebraska should be

held to the same standard as one who is represented by counsel?

i

TABLE OF CONTENTS
PAGE NUMBER
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

3

A.

PROCEDURAL HISTORY

3

B.

STATEMENT OF FACTS

6
9

REASONS FOR GRANTING THE WRIT
I.

II.

III.

CERTIORARI SHOULD BE GRANTED TO RESOLVE THE UNANSWERED QUESTION
OF WHETHER THE EIGHTH AND FOURTEENTH AMENDMENTS PROHIBIT THE
CONTINUED INCARCERATION OF A PRISONER WHO PRESENTS PERSUASIVE
POSTCONVICTION CLAIMS OF ACTUAL INNOCENCE..........................................

9

CERTIORARI SHOULD BE GRANTED TO ADRESS WHETHER THE INADEQUATE
STATE-LAW PROCEDURES FOR POSTCONVICTION RELIEF IN NEBRASKA
VIOLATES THE FOURTEENTH AMENDMENT.....................................................

16

CERTIORARI SHOULD BE GRANTED TO ADRESS WHETHER THE FOURTEENTH
AMENDMENT PROHIBITS STATE COURTS FROM HOLDING PRO SE POST­
CONVICTION MOVANTS TO THE SAME STRINGENT STANDARDS AS ATTORNEYS,,.

21
24

CONCLUSION
INDEX TO APPENDICES
APPENDIX A: Memorandum Opinion and Judgment on Appeal from the Nebraska
Supreme Court/ State v. Buttercase, No. S-19-0384 (Neb. 2020),
unpublished (filed June 26, 2020).
APPENDIX B: Orders from the district court of Gage County, Nebraska
denying postconviction motions, State v. Buttercase, No.
CR 11-124, unpublished (filed March 20, 2019 & April 24, 2019).

ii

TABLE OF AUTHORITIES
CASES
Atkins v. Virginia, 536 U.S. 304 (2002) ...

13

Berger v. United States, 295 U.S. 78 (1932)

15

Burton v. Dormire, 295 F.3d 839 (8th Cir.2002)

10
16, 19

Case v. Nebraska, 381 U.S. 336 (1965)
Chambers v. Mississippi, 410 U.S. 284 (1973)

18

Cleburne v. Cleburne Living, Inc • / 473 U.S. 432 (1985)

19

Davis v. Wechsler, 263 U.S. 22 (1923)

21

Earl v. Fabian, 556 F.3d 717 (8th Cir.2009)

22

Erickson v. Pardus, 551 U.S. 89 (2007)

22

Estelle v. Gamble, 429 U.S. 97 (1976)

22

Ex parte Thompson, 153 S.W.3d 416 (Tex. Crim. App. 2015)

11

Foman v. Davis, 371 U.S. 178 (1962)

20

Giglio v. United States, 405 U.S. 150 (1972)

15, 16
13

Gregg v. Georgia, 428 U.S. 153 (1976)
Herrera v. Collins, 506 U.S. 390 (1993)

passim

House v. Bell, 547 U.S. 518 (2006)

11, 12

In re Davis, 557 U.S. 952 (2009)

11

In re Davis, 2010 WL 3385081 (S.D. Ga. 8/24/10)

11

In re Winship, 397 U.S. 358 (1970)

15

Kimmelman v. Morrison, 477 U.S. 365 (1986)

23
20, 21

Lee v. Kemma, 534 U.S. 362 (2002)
Logan v. Zimmerman Brush Co • / 455 U.S. 422 (1982)

19

McQuiggin v. Perkins, 133 S.Ct. 1924 (2013)

11

iii

Montgomery v. Louisiana, 136 S.Ct. 718 (2016)

14

Montoya v. Ulibarri, 142 N.M 89 (2007) ......

10

Mooney v. Holohan, 294 U.S. 103 (1935) ..........

15

Murphy v. Mo. Dep't of Corr • / 372 F.3d 979 (8th Cir.2004)

19

Murray v. Giarrantano, 492 U.S. 1 (1989)

20

Napue v. Illinois, 360 U.S. 264 (1959) .

15, 16

People v. Hamilton, 115 A.D.3d 12 (N.Y. 2014) ...

10, 12, 14

People v. Washington, 665 N.E.2d 1330 (Ill. 1996)

10, 12

Plyler v. Doe, 457 U.S. 202 (1982) ..

19

Roper v. Simmons, 543 U.S. 551 (2005)

13

Robinson v. California, 370 U.S. 660 (1962)

14

Schlup v. Delo, 513 U.S. 298 (1995) ..........................

12

State v. Buttercase, No. A-12-1167 (Neb.App. 2013)

3

State v. Buttercase, 2017 WL 601628 (Neb.App. 2017)

passim

State v. Buttercase, No. S-19-0384 (Neb. 2020)

passim

State v. El-Tabech, 610 N.W.2d 737 (Neb. 2000)

10

State v. Lotter, 278 Neb. 466 (Neb. 2009)

20

State v. Marshall, 272 Neb. 466 (Neb. 2007)

22

State v. Mata, 280 Neb. 849 (Neb. 2010)

17, 18

State v. Robertson, 294 Neb. 29 (Neb. 2016)

17

Stephenson v. Neal, 2017 WL 3319296 (7th Cir.8/4/17)

10

United States v. Bagley, 473 U.S. 667 (1985) ............

18

Vance v. Bradley, 440 U.S. 93 (1979) ..

19

Youngberg v. Romeo, 457 U.S. 307 (1982)

12

iv

CONSTITUTIONAL PROVISIONS
U.S. Const, amend VIII

passim

U.S. Const, amend XIV

passim

STATUTES AND RULES
28 U.S.C. § 1257

1

28 U.S.C. § 2241

11

28 U.S.C. § 2254

10

Neb.Rev.Stat. § 25-1329

4/ 5

Neb.Rev.Stat. § 25-1912

5

Neb.Rev.Stat. § 29-2101

2/3/4

Neb.Rev.Stat. § 29-3001

passim

Neb.Rev.Stat. § 29-3004

4

Neb.Rev.Stat. § 29-4120

2

Neb.Rev.Stat. § 29-4122

3
20

Fed. R Civ. P. 15
OTHER AUTHORITIES
Brooks, Simpson, and Kaneb, If Hindsight Is 20/20, Our Justice System
Should Not Be Blind To New Evidence Of Innocence: A Survey of PostConviction New Evidence Statutes And A Proposed Model; 79 Alb. L.
Rev. 1045 (2015/2016) .......................................................................................

13

Brian R. Means, Postconviction Remedies § 6:17 (July 2020 Update)

13

1954 Report of the Special Committe on Habeas Corpus of the Conference
of Chief Justices, H.R.Rep.No. 1293, 85 Cong., 2d Sess • / p.7 et seq. —

20

V

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review
the judgment and decision of the Nebraska Supreme Court.

OPINIONS BELOW
The memorandum opinion and judgment on appeal from the Nebraska Supreme
Court appears at Appendix A to the petition and is unpublished. The opinions
of the district court of Gage County, Nebraska appears at Appendix B to the
petition and is unpublished (S-19-0384/T487-488;Supp.Tl-3)-.
JURISDICTION
The judgment of the Nebraska Supreme Court was entered on June 26, 2020.
On March 19, 2020, this Court extended the deadline to file any petition for
writ of certiorari to 150 days from the date of the lower court judgment,
order denying discretionary review, or order denying a timely petition for
rehearing, due to the covid-19 pandemic. The present petition for writ of
certiorari is timely filed by not later than November 23, 2020. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Eighth Amendment to the United States Constitution provides that:
"Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted."
The Fourteenth Amendment to the United States Constitution provides, in
1

pertinent part/ that: "No state shall make or enforce any law which will
abridge the privileges or immunities of the citizens of the United States;
nor shall any state deprive any person of life/ liberty/ or property/ without
due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws."
Neb.Rev.Stat. § 29-2101(5) provides, in pertinent part, that: "A new trial,
after a verdict of conviction, may be granted, on the application of the
defendant, for any of the following grounds affecting materially his or her
substantial rights: ... newly discovered evidence material for the defendant
which he or she could not with reasonable diligence have discovered and
produced at trial; ..."
Neb.Rev.Stat. § 29-3001(1) provides that: "A prisoner in custody under
sentence and claiming a right to be released on the ground that there was such
a denial or infringement of the rights of the prisoner as to render the judg­
ment void or voidable under the Constitution of this state or the Constitution
of the United States, may file a verified motion, in the court which imposed
the sentence, stating the grounds relied upon and asking the court to vacate
or set aside the sentence."
Neb.Rev.Stat. § 29-4120(1)(c) provides, in pertinent part, that: "Notwith­
standing any other provision of law, a person in custody pursuant to the
judgment of a court may, at any time after conviction, file a motion, with or
without supporting affidavits, in the court that entered the judgment request­
ing forensic DNA testing of any biological material that: ... [w]as not
previously subjected to DNA testing or can be subjected to retesting with more
current techniques that provide a reasonable likelihood of more accurate and
probative results."
2

STATEMENT OF THE CASE
A.

PROCEDURAL HISTORY
On August 17, 2012, a Gage County, Nebraska jury convicted Petitioner

Joseph J. Buttercase of one count of first degree sexual assault, first degree
false imprisonment, strangulation, third degree domestic assault, and the jury
acquitted Petitioner of one count of terroristic threats. The trial court on
December 4, 2012 sentenced Petitioner to imprisonment for a total term of not
less than 26 years and 8 months to no more than 41 years. On direct appeal
the Nebraska Court of Appeals affirmed Petitioner's convictions and sentences
on November 5, 2013 in State v. Buttercase, No. A-12-1167 (Neb.App. 2013),
unpublished, further review denied February 20, 2014. Buttercase did not
petition this Court for a writ of certiorari on his direct appeal.
Petitioner subsequently sought postconviction relief in the state trial
court on February 19, 2015 pursuant to Neb.Rev.Stat. § 29-3001. On October 2,
2015, the trial court denied Petitioner postconviction relief and also denied
his request for an evidentiary hearing. The Nebraska Court of Appeals affirmed
the trial court's denial of Petitioner's motion for postconviction relief
without a hearing, motion to amend, and motion to recuse on December 5, 2017
in State v. Buttercase, No. A-15-987 (Neb.App. 2017), unpublished, further
review denied March 12, 2018.
Petitioner also filed in the trial court on July 14, 2017, a motion for
new trial pursuant to Neb.Rev.Stat. § 29-2101(5), motion for DNA testing
pursuant to Neb.Rev.Stat. § 29-4120, and a motion for appointment of counsel
pursuant to Neb.Rev.Stat. § 29-4122 (2ndSupp.Tl-31;Conf.Tl-144). Petitioner
moved the trial court for a new trial and DNA testing based upon newly dis­
covered evidence concerning prosecutorial misconduct, judicial partiality,
3

and jury misconduct. Id. On September 15, 2017, a hearing was held in the
trial court with respect to Petitioner's motion for new trial and motion for
DNA testing (Supp.B.O.E.5:1-12:11). The trial court on November 3, 2017 stayed
Petitioner's pending motion for new trial and motion for DNA testing based
upon Petitioner's pending postconviction relief appeal in the Nebraska Court
of Appeals, State v. Buttercase, No. A-15-987.
On April 6, 2018, Petitioner filed in the trial court a motion to vacate
(postconviction relief) pursuant to Neb.Rev.Stat. § 29-3001 and a motion for
appointment of counsel pursuant to Neb.Rev.Stat. § 29-3004 (T28-29;T31-317).
Petitioner moved the trial court to vacate his convictions and sentences based
upon insufficient evidence to convict him beyond a reasonable doubt, newly
discovered ineffective assistance of trial/appellate counsel claims,
prosecutorial misconduct claims, judicial partiality claims, jury misconduct
claims, and he also challenged the constitutionality of the Nebraska Post­
conviction Act Id. Petitioner filed in the trial court on July 11, 2018, a
supplemental motion for new trial pursuant to Neb.Rev.Stat. § 29-2101(5)
(T320-461). Petitioner supplemented his original motion for new trial based
upon additional newly discovered evidence concerning further prosecutorial
misconduct and jury misconduct that was unknown when the original motion
was filed. Id.
The trial court entered its order dismissing Petitioner's motion to vacate
(postconviction relief), motion for appointment of counsel, and supplemental
motion for new trial—along with his requests for evidentiary hearings on
March 20, 2019 (T487-488) (Appendix B). Petitioner timely filed in the trial
court March 26, 2019, a motion to alter or amend pursuant to Neb.Rev.Stat. §
25-1329 and a motion to reconsider (T490-595). On April 24, 2019, the trial
4

court entered its Order overruling Petitioner's motion for DNA testing and his
originally filed motion for new trial (Supp.Tl-3) (Appendix B). Petitioner
timely filed in the trial court on April 24/ 2019/ a motion to alter or amend
pursuant to Neb.Rev.Stat. § 25-1329 and a motion to reconsider (2ndSupp.T4446;T51-70). On May 1/ 2019/ Petitioner timely filed in the trial court a
motion to reconsider (2ndSupp.T71-73).
Pursuant to Neb.Rev.Stat. § 25-1912(3)/ the aforementioned post-judgment
motions to alter or amend and motions to reconsider reset the running of the
thirty (30) days time to file notice of appeal until after the trial court
issued its order on May 2, 2019 (2ndSupp.T74). Petitioner timely filed his
Notice of Appeal in the trial court on April 19, 2019 from the denials of his
motion to vacate (postconviction relief), motion for appointment of counsel,
and supplemental motion for new trial. Petitioner also filed in the trial
court with his Notice of Appeal a motion for leave to proceed in forma pauperis
and supporting poverty affidavit. The trial court granted Petitioner leave to
proceed with his appeal in forma pauperis on the same day of April 19, 2019.
Petitioner timely filed his second Notice of Appeal in the trial court on May
16, 2019 from the denials of his motion for DNA testing and his originally
filed motion for new trial. Petitioner also filed in the trial court with his
second Notice of Appeal a motion for leave to proceed with appeal in forma
pauperis, and supporting poverty affidavit. The trial court granted Petitioner
leave to proceed with his appeal in forma pauperis on the same day of May 16,
2019.
After briefing and oral argument, the Nebraska Supreme Court on June 26,
2020 affirmed the trial court's denials of Petitioner's supplemental and motion
for new trial, motion for DNA testing, motion to vacate (postconviction relief),
5

and motion for appointment of counsel in State v. Buttercase, No. S-19-0384
(Neb. 2020)/ unpublished (Appendix A).
B.

STATEMENT OF FACTS
Joseph J. Buttercase was convicted in 2012 for the alleged rape and assault

of his ex-girlfriend Tessa Fulton. The jury convicted Buttercase on the word
of Fulton whose testimony was inherently unreliable. There was not any
physical evidence to support Fulton's allegations that she was physically or
sexually assaulted at Buttercase's home in the living room, hallway or kitchen.
There was not any evidence on Buttercase's person, such as abrasions or
scratches, to support Fulton's allegations that he used his fists to punch her
on all parts of her body for three and a half hours with only little breaks
taken. There was an absence of marks on Buttercase's knuckles and no defense
wounds. Buttercase would have managed to commit this alleged assault without
leaving any external bruising or markings on Fulton as well, as witnessed by
Megan Breedon (Fulton's sister) that testified "her appearance was'nt any
different other than missing jewelry ..." (A-12-1167/B.O‘.E.221:4-9). Fulton
also testified that Buttercase had never assaulted her at any time during
their

year relationship (id./304:13-14;317:24-318:5;323:17-18).

In the early morning of July 16, 2011, Buttercase received a ride home
from Fulton. Upon arrival at Buttercase's home in Beatrice, Gage County,
Nebraska, Fulton invited herself in as Buttercase stated that he just wanted
to pass out because he was drunk (id./749:7-750:6;751:13-752:4). Fulton
insisted that she and Buttercase have sexual relations while she was at
Buttercase's home. Fulton stated that she wanted to become a couple again with
Buttercase when they woke up in the morning. Fulton became angry at Buttercase
when he refused, stating "Fuck You. My name is no longer Tessa. It is now
6

Karma." and then she left his home at approximately 9:00 a.m. (id./762:l-18;
764:3-19:788:8-791:1). Thereafter on the same day of July 16/ 2011, Buttercase
was wrongfully arrested and falsely charged by the Beatrice Police Department
with various crimes to include, but not limited to, domestic and sexual
assault of Fulton (A-12-1167/T5-9).
After trial, Sondra Aden (Buttercase's next-door neighbor) testified
before the trial court at an evidentiary hearing for Buttercase's first motion
for new trial that she witnessed Tessa Fulton leave Buttercase's residence the
morning of July 16, 2011, at approximately 9:00 a.m. Aden saw Fulton walking
to her car from Buttercase's home swinging,her sandals. Fulton turned back to
look at Buttercase, he waved, and she then got into her vehicle. It did not
appear to Aden that Fulton was in any kind of pain or discomfort while walking
to her car. Nor did Aden observe any injuries or blood to her face from a
distance of about three car lengths when Fulton had looked back toward
Buttercase. The lighting was bright and sunny at the time (A-12-1167/T57-62)
(A-12-1167/973:1-1022:21).
Tessa Fulton's whole story of Joseph Buttercase's actions and consequently
all of the charges that he was convicted of is a lie. Buttercase did NOT
sexually assault Tessa Fulton, physically assault her, strangle her or falsely
imprison her (id./797:3-798:20). Rather, Tessa Fulton concocted the entire
story because she wanted to get back at Buttercase for not wanting to resume
their dating relationship (id./788:8-21). Fulton still wanted to be in a
relationship with Buttercase (id./305:23-306:l). They continued having sexual
relations from March of 2011, when Buttercase broke up with her, until the
middle of June of 2011 while they were having sex while she was menstruating
(id./250:6-251:21:877:22-24;683:17-25).
7

Fulton also claimed that Buttercase had her sign over to him a bunch of
her electronics (id./243:18-24). Fulton testified that Buttercase took "every
bit and piece of my belongings" before he moved out for good (id./249:13-22).
Megan Breedon testified that she was aware that Fulton had been trying to get
property out of Buttercase's home that she claimed to be hers, and Breedon had
also expressed concern of her own to Investigator Bryne about the releasing of
Buttercase's seized car that had also been claimed by Fulton to be hers (id./
219:13-22).

Irene Snell (Fulton's friend) gave testimony that she never liked

Buttercase and that Fulton continued to sleep with him to get her things back
(id./185:19-23;190:21-191:2). Snell was interviewed by Investigator Erin Byrne
on August 30, 2011, wherein Byrne told Snell that people were saying Fulton
had made up the false accusations against Buttercase as a revenge story. Snell
said the thought had crossed her mind due to the fact that Fulton sounded
awfully cheerful (id./184:12-185:l;191:9-ll). Fulton had also filed a civil
lawsuit against Buttercase for the property she claimed Buttercase had taken
from her (id./304:18-305:13).
Attorney, Jason Troia #21793, was hired by Buttercase's family to represent
Petitioner at his trial and direct appeal. Because the prosecution failed to
disclose material exculpatory and impeaching evidence to the defense prior to
trial, Troia's cross-examination of Fulton barely scratched the surface of
establishing her utter lack of credibility. New evidence came to light during
state postconviction proceedings, including, but not limited to, material
exculpatory DNA evidence that included mixed sperm cell fractions, material
exculpatory eye witness next-door neighbor Sondra Aden, material exculpatory/
impeaching sex tapes of Tessa Fulton and Joseph Buttercase of previous consent
to acts later alleged on July 16, 2011, to have been done without her consent,
8

and material exculpatory/impeaching Facebook messages between Tessa Fulton and
Samantha Peck (Buttercase's ex-wife) that also supports a judicial partiality
claim. Buttercase, throughout state court proceedings, had the misfortune of
being represented by ineffective counsel who did virtually no investigation
on his behalf. Consequently, Buttercase went to trial without any reasonable,
independent investigation into his actual innocence.
Based upon all of the newly discovered evidence of innocence, Petitioner
filed in the trial court motions for new trial, motion for DNA testing, motion
to vacate (postconviction relief), and motions for appointment of counsel on
July 14, 2017, April 6, 2018, and July 11, 2018. These motions raised 30-plus
constitutional violation claims, including actual innocence claims, under
federal and state law, and requested evidentiary hearings (2ndSupp.Tl-31;Conf.
Tl-144) (T28-29;T31-317) (T320-461). The trial court denied these motions on
March 26, 2019 and April 16, 2019 (T487-488;Supp.Tl-3) (Appendix B).
The Nebraska Supreme Court affirmed the trial court's denial of the afore­
mentioned postconviction motions on June 26, 2020 in State v. Buttercase, No.
S-19-0384 (Neb. 2020), unpublished (Appendix A). The present petition for writ
of certiorari is now before this Court for its consideration.
REASONS FOR GRANTING THE WRIT
I.

CERTIORARI SHOULD BE GRANTED TO RESOLVE THE UNANSWERED
QUESTION OF WHETHER THE EIGHTH AND FOURTEENTH AMENDMENTS
PROHIBIT THE CONTINUED INCARCERATION OF A PRISONER WHO
PRESENTS PERSUASIVE POSTCONVICTION CLAIMS OF INNOCENCE.
The facts of this case present this Court with an ideal opportunity to

resolve the unanswered questions and confusion spawned by this Court's decision
Herrera v. Collins, 506 U.S. 390 (1993), regarding whether due process and the
cruel and unusual punishment clauses of the Eighth and Fourteenth Amendments
9

prohibits the incarceration of an innocent prisoner. The Herrera decision has
created a great deal of confusion and conflicts between the various state and
federal courts that have addressed whether innocent prisoners have a due
process right to postconviction relief where credible and substantial free­
standing claims of innocence are advanced.
In the aftermath of Herrera/ federal circuit court of appeals are divided
on whether Herrera precludes federal habeas petitioners from obtaining habeas
corpus relief under 28 U.S.C. § 2254 based on freestanding claims of actual
innocence. See, e.g • / Burton v. Dormire/ 295 F.3d 839/ 848 (8th Cir.2002)
(finding innocence claims not cognizable); Stephenson v. Neal, 2017 WL 3319296
(7th Cir.8/4/17) (considering and denying innocence claim on the merits). The
question of whether the federal constitution precludes the incarceration of an
innocent prisoner has also divided many of the state courts who have addressed
the issue. The Illinois Supreme Court determined that this Court's "conflicted"
decision in Herrera barred a federal due process claim grounded upon actual
innocence and instead relied upon the Illinois Constitution to grant the
prisoner a new trial. People v. Washington, 665 N.E.2d 1330, 1335 (ill. 1996).
Several other state courts have taken a similar path to grant innocent
prisoners relief under constitutions. See, e.g., People v. Hamilton, 115
A.D.3d 12 (N,Y. 2014); Montoya v. Ulibarri, 142 N.M 89, 97 (2007).
However, in states, such as Nebraska, where neither legislation nor the
state constitution has been interpreted to permit innocent prisoners to obtain
postconviction relief, innocent prisoners have no legal recourse to obtain arty
meaningful judicial review despite compelling evidence that they are imprisoned
or even condemned to die for a crime that they did not commit. The Nebraska
Supreme Court held in State v. El-Tabech, 610 N.W.2d 737, 748 (Neb. 2000),
10

that, in light of Herrera and the language of the state's postconviction act/
an innocent prisoner had no legal recourse in Nebraska courts unless the
legislature intervened to expand the scope of the state's postconviction
review act. On the other hand, some states have found that postconviction
relief is available to innocent prisoners because the failure to provide
postconviction relief under these circumstances would violate the due process
clause of the United States Constitution. Ex parte Thompson/ 153 S.W.3d 416
(Tex. Crim. App. 2015).
It is also important to note that these restrictive interpretations of the
Herrera decision to categorically preclude constitutional claims advanced by
prisoners with freestanding claims of innocence are demonstrably wrong. In the
last decade, this Court has made it clear that Herrera, in which the petitioner
had only made a weak showing of innocence, did not actually resolve the issue
of whether the constitution precludes the continued incarceration or execution
of an innocent prisoner. See, McQuiggin v. Perkins, 133 S.Ct. 1924, 1931
(2013); House v. Bell, 547 U.S. 518, 554-555 (2006).
This Court's decision in In re Davis, 557 U.S. 952 (2009), also strongly
suggests that freestanding claims of innocence are constitutionally viable.
In that case, this Court remanded a prisoner's original petition for a writ
of habeas corpus under 28-U.-S.-C. § 2241 to the district court for an
evidentiary hearing on his claim of innocence. Id. After a hearing was
conducted, the district court found that "executing an innocent person would
violate the Eighth Amendment" but that Davis did not establish his innocence.
In re Davis, 2010 WL 3385081 (S.D. Ga. 8/24/10) at *61.
Herrera recognized that the central purpose of any system of criminal
justice is to convict the guilty and free the innocent. Herrera, 506 U.S. at
11

398- In addition, the concept of "liberty from bodily restraint has been
recognized as the core of the liberty protected by the Due Process Clause
from arbitrary governmental action." Youngberg v. Romeo, 457 U.S. 307, 316
(1982). Because an innocent person "has a liberty interest in remaining free
from punishment," the execution or continued incarceration of an innocent
person violates elementary fairness and "runs afoul" of that person's due
process rights. Hamilton, 115 A.D.3d at 26.
Both the Herrera decision itself and subsequent decisions clearly indicate
that strong procedural and substantive due process arguments can be made that
the continued incarceration or execution of an innocent prisoner would violate
both procedural and substantive due process under the Fourteenth Amendment.
Herrera, 506 U.S. at 437 (Blackmun, J., dissenting). Although the majority of
the court in Herrera declined to find that substantive due process would be
violated by the execution of an innocent prisoner, at least six members of the
court did agree that a truly persuasive case of actual innocence would render
a conviction unconstitutional. Id • / 506 U.S. at 417. The Illinois Supreme
Court in Washington found that the continued imprisonment of an innocent
person would violate both substantive and procedural due process. The court in
Washington held that procedural due process required postconviction relief
because "to ignore such a claim would be fundamentally unfair." Washington,
665 N.E.2d at 1336. The court in Washington also held that "imprisonment of
the innocent would also be so conscience shocking as to trigger operation of
substantive due process." Id.
This Court in House v. Bell, 547 U.S. 518 (2006), observed that "[t]he
sequence of the Court's decisions in Herrera and Schlup v. Delo, 513 U.S. 298
(1995)—first leaving unresolved the status of freestanding claims and then
12

establishing the gateway standard—implies at the least that Herrera requires
more convincing proof of innocence than Schlup." House v. Bell/ 547 U.S. 518/
555 (2006). Together, House and Schlup indicates that the burden of demon­
strating a freestanding claim of actual innocence is (1) "extraordinarily
high," Herrera, 506 U;S. at 417, (2) more demanding than the actual innocence
standard applied in the procedural default context, House, and (3) based on
the perspective of a "reasonable juror." Schlup, 513 U.S. at 329; Brian R.
Means, Postconviction Remedies § 6:17 (July 2020 Update).
The continued incarceration or execution of an innocent prisoner would
violate the Eighth Amendment to the United States Constitution. A sentencing
process that does not comport with "evolving standards of decency that mark
the progress of a maturing society" violates the cruel and unusual punishment
clause of the Eighth Amendment. Roper v. Simmons, 543 U.S. 551, 561 (2005);
Gregg v. Georgia, 428 U.S. 153, 173 (1976). In determining whether an Eighth
Amendment violation occurs under the evolving standards of decency test, the
best indicator of contemporary values is legislation enacted by the states.
See, Atkins v. Virginia, 536 U.S. 304, 313 (2002).
In the more than two decade since the Herrera decision, the vast majority
of the states either through legislation, court rule, or by the interpretation
of its constitution, have created a postconviction review system that allows
wrongfully convicted postconviction relief if they can present a compelling
case of actual innocence. See, Brooks, Simpson, and Kaneb, If Hindsight Is
20/20, Our Justice System Should Not Be Blind To New Evidence of Innocence: A
Survey Of Post-Conviction New Evidence Statutes And A Proposed Model; 79 Alb.
Rev. 1045 (2015/2016). This expansion of the rights of innocent prisoners to
seek legal redress has also undoubtedly been accelerated as a result of the
13

spate of DNA exonerations resulting from scientific advances in that tech­
nology. However, as mentioned earlier, for those innocent prisoners in the
federal system and the handful of states such as Nebraska that do not
provide adequate legal remedies for innocent prisoners, this Court under
Simmons and Atkins should grant review in this case in order to recognize
that the United States Constitution requires that innocent prisoners have a
right to be heard and obtain new trials on freestanding claims of actual
innocence under the evolving standards of decency test.
Another central concern of the Eighth Amendment is its protection against
disproportionate punishment. See, Montgomery v. Louisiana, 136 S.Ct. 718, 732
(2016). This Court has identified four "penological justifications" for
imposing a life without parole sentence in Montgomery: (1) retribution; (2)
deterrence; (3) incapacitation; and (4) rehabilitation. Id • / at 733. None of
these purposes are served and are, in fact, undermined when the convicted
individual is actually innocent. Therefore, because punishment of an actually
innocent person is inherently disproportionate to the acts committed by that
person, such punishment violates the constitutional prohibition on cruel and
unusual punishment. Hamilton, 115 A.D.3d at 26. This Court in Robinson v.
California, 370 U.S. 660, 667 (1962), hypothesized an extreme example of
disproportionate punishment when it noted that "even one day in prison would
be a cruel and unusual punishment for the crime of having a common cold."
The state legislative and legal developments involving innocence juris­
prudence in the aftermath of Herrera dictate that its holding should be
abandoned, reexamined, and clarified. Evolving standards of decency clearly
dictate that it is constitutionally impermissible to allow prisoners to remain
incarcerated or forfeit their lives if they have a substantial claim of
14

innocence.
The state's case against Buttercase was a he said—she said case. Fulton
and Buttercase had consensual intercourse at his home while she was on her
period. Fulton was not physically or sexually assaulted by Buttercase. Fulton
was free to leave Buttercase's home at anytime/ in fact, she invited herself
into his house to have sexual relations with him in hopes of becoming a couple
again. Buttercase was dating one of Fulton's lady friends at this time in 2011
and, he was out with some of her other lady friends the night of July 15-16,
2011 as well. Fulton felt used when Buttercase refused to become an exclusive
couple again the morning of July 16, 2011. Fulton replied to Buttercase that
"my name is no longer Tessa, it is now Karma. Fulton also believed that
Buttercase had property of hers, to include her car. This Court has held that
"It is far worse to convict an innocent man than to let a guilty man go free."
In re Winship, 397 U.S. 358, 372 (1970).
The state only wanted Buttercase's conviction, without a care that he is
actually innocent. It is the duty of the prosecutor to seek justice, and not
merely to convict. Berger v. United States, 295 U.S. 78 (1932). The due process
clause of the Fourteenth Amendment protects criminal defendants from the
prosecution's use of false evidence:
As long ago as Mooney v. Holohan, 294 U.S. 103, 112 (1935), this
Court made clear that deliberate deception of a court and jurors by the
presentation of known false evidence is incompatible.with; "rudimentary
demands of justice." This was reaffirmed in Plyle v. Kansas, 317 U.S.
213 (1942).
Giglio v. United States, 405 U.S. 150, 153-154 (1972). Here, the prosecution
had a duty to refrain from the use of Fulton's testimony which they knew or
should have known to be false. "In Napue v. Illinois, 360 U.S. 264 (1959), we
said, 'the same result obtains when the State, although not soliciting false
15

evidence/ allows it to go uncorrected when it appears."

Giglio/ 405 U.S. at

154. Instead of complying with their constitutional duty/ the prosecution sat
silently by and took advantage of the windfall that came their way by reason
of Fulton's false and misleading testimony.
Under Napue and Giglio/ Buttercase is entitled to postconviction relief
due to the false or misleading evidence affecting the deliberation of the jury:
It is of no consequence that the falsehood bore upon the witness'
credibility rather than directly upon defendant's guilt. A lie is a
lie/ no matter what its subject/ and if it is in any way relevant to
the case, the district attorney has the responsibility and duty to
correct what he knows to be false and elicit the truth.— That the
district attorney's silence was not the result of guile or a desire
to prejudice matters little, for its impact was the same, preventing,
as it did, a trial that could in any real sense be termed fair.
Napue, 360 U.S. at 270. That standard is unquestionably met in Buttercase's
case, where the prosecution's case was built entirely on the false testimony
of Tessa Fulton that is uncorroborated by the physical evidence and newly
discovered evidence. Because the state allowed Fulton's false testimony to go
uncorrected in violation of Buttercase's right to due process, Buttercase's
conviction must be vacated. This Court's discretionary review is necessary to
ensure that innocent prisoners, such as Buttercase, have adequate judicial
process to litigate their claims.
II.

CERTIORARI SHOULD BE GRANTED TO ADDRESS WHETHER THE
INADEQUATE STATE-LAW PROCEDURES FOR POSTCONVICTION RELIEF
IN NEBRASKA VIOLATES THE . FOURTEENTH AMENDMENT. .
The fundamental priciples of due process that are implicated in this case

are of substantial importance to prisoners in Nebraska seeking postconviction
relief. After Certiorari:was granted, the Nebraska legislature enacted a
statute providing a postconviction procedure. Neb.leg.Bill. 836, Seventy-fifth
Session, effective April 12, 1965. Case v. Nebraska, 381 U.S. 336, 337 (1965).
16

In State v. Buttercase, No. A-15-987, 2017 WL 6016428 (Neb.App. 2017)/ the
Nebraska Court of Appeals found that:
Buttercase's reliance on State v. Mata, 280 Neb.849, 70 N.W.2d 716
(2010), for his position that the district court should have liberally
construed his original motion for postconviction relief in order to find
his later amendment sufficiently related back to his original claims is
no longer relevant in light of our Supreme Court disfavoring the
application of the more liberal civil pleading rules to postconviction
proceedings. See State v. Robertson, [294 Neb. 29, 881 N.W.2d 864 (2016)].
The Nebraska Court of Appeals then held: "Therefore, as set forth in State
v. Edwards, supra, we review the district court's order denying Buttercase's
motion to amend his postconviction relief for an abuse of discretion, and we
find none." State v. Buttercase, No. A-15-987, 2017 WL 6016428 (Neb.App. 2017)
(T18,H4) (T170-171). Due to the state's suppression of material exculpatory
evidence, Buttercase's postconviction counsel was unable to include all claims
of relief in the original motion for postconviction relief because not all the
new evidence had been discovered yet. In an attempt to cure the defects in the
original postconviction motion, Buttercase's postconviction counsel moved the
trial court for leave to amend. The motion to amend was filed in trial court
on June 29, 2015 (A-15-987/T14), and the trial court denied Buttercase leave
to amend on September 16, 2015 (id./T20-22), all before the trial court denied
Buttercase's motion for postconviction relief on October 2, 2015 (id./T23-34).
Buttercase's proposed amendment pertained to seized sex tape videos of Fulton
and Buttercase of previous consent to acts of being "choked out" and having
her "hair pulled" as well as oral sex, and sexual intercourse while she is
bleeding "everywhere" that Fulton later alleged done on July 16, 2011, without
her consent. (A-15-987/12:l-38:ll) (A-15-987/E123,l:22,23) (T171,111-3).
The state court's denial of Buttercase's Motion to Amend his postconviction
motion prejudiced Buttercase inasmuch due to the prosecution's failure to
17

disclose the material exculpatory sex tapes could have been offered as evidence
at trial by the defense under Chambers v. Mississippi/ 410 U.S. 284 (1973) to
confront the state's primary witness against him, Tessa Fulton, to prove the
truth of the matters asserted therein. The exclusion of these material videos
of previous consent to acts later alleged done without Fulton's consent
violated Buttercase's federal constitutional rights under the confrontation
clause and due process of law. There is a reasonable probability that if the
trial court would have granted Buttercase leave to amend his postconviction
motion, Buttercase would have been able to prove by the preponderance of the
evidence during an evidentiary hearing that there was such a denial or in­
fringement of his state and federal constitutional rights as to render his
judgment void or voidable under the state and federal Constitutions, and the
outcome would have been different (most likely a new trial for Buttercase).
Consequently, the state's denial of Buttercase's motion to amend "undermines
confidence in the outcome of [Buttercase's] trial." United States v. Bagley,
473 U.S. 667, 682 (1985).
The Nebraska Court of Appeals holding in Buttercase also implies that a
capital prisoner enjoys more constitutional rights to due process of law than
a similarly situated prisoner with a substantial length of imprisonment:
In Mata, our Supreme Court stated that a prisoner's ability to amend
his postconviction motion was governed by Neb.Ct.R.Pldg. § 6-1115.(a), and
under that rule, leave shall be freely given when justice so requires.
Looking to federal court's interpretations of the rule, our Supreme Court
said, "A district court's denial of leave to amend pleadings is approp­
riate only in those limited circumstances in which undue delay, bad faith
on the moving party, futility of the amendment, or unfair prejuice to the
nonmoving party..can be demonstrated." State v. Mata, 280 at 855, 790
N.W.2d at 720. The Supreme Court,concluded it was an abuse of discretion
to deny the prisoner leave to amend his motion for postconviction relief
under the circumstances of that case. The Court noted the prisoner, who
had been sentenced to death, may have viable ineffective assistance of
counsel and other claims which, if not allowed to amend his motion, would
18

result in the prisoner being procedurally barred from ever bringing those
claims before being put to death. The circumstances in Mata are not
present here/ ... (emphasis added).
State v. Buttercase, No. A-15-987, 2017 WL.6016428 (Neb.App. 2017) (T17,H3).
Buttercase and Mata are both similarly situated Nebraska prisoners. The
equal protection clause of the Fourteenth Amendment imposes upon a state the
requirement that all similarly situated persons should be treated alike.
Plyler v. Doe, 457 U.S. 202, 216 (1982). The Eighth Circuit Court of Appeals
has also held that "[t]he Equal Protection Clause of the Fourteenth Amendment
requires the government to treat similarly situated people alike, a protection
that applies to prison inmates."(emphasis added). Murphy v. Mo. Dep't of
Corr • f 372 F.3d 979, 984 (8th Cir.2004). Generally, legislation or a court
decision will be presumed to be valid if the disparate treatment of a class of
citizens is rationally related to a legitimate state interest. See, Vance v.
Bradley, 440 U.S. 93, 97 (1979). However, strict scrutiny of state laws is
required if a suspect class is involved or "When state laws impinge on personal
rights protected by the Constitution." Cleburne v. Cleburne Living, Inc • / 473
U.S. 432, 440 (1985). The Nebraska Court of Appeals holding in Buttercase
clearly violates Buttercase's federal constitutional rights to due process of
law and equal protection of the laws. Also, Buttercase's case is distinguish-:
able from Robertson, unlike the Nebraska Court of Appeals suggested, because
in Robertson the motion for leave to amend was requested AFTER the denial of
his motion for postconviction relief, whereas Buttercase's motion to amend was
requested BEFORE the denial of his motion for postconviction relief.
This Court has cited in Case, supra, that:
State statutes should provide a postconviction process at least as
broad in scope as existing Federal statutes under which claims of vio­
lation of constitutional right asserted by State prisoners are determined
M |

19

in Federal courts under the Federal habeas corpus statutes,'".
(emphasis added). Case v. Nebraska, 381 U.S. at 346 (PER CURIAM) (Brennan, J • /
concurring); citing 1954 Report of the Special Committee on Habeas Corpus of
the Conference of Chief Justices, H.R.Rep.No.1293, 85th Cong., 2d Sess • / P-7
et seq. In deciding to grant leave to amend, federal courts are guided by five
factors: (1) bad faith; (2) undue delay; (3) prejudice to the opposing party;
(4) futility of the amendment; and (5) whether the party previously amended
its pleadings. See, e.g., Foman v. Davis, 371 U.S. 178, 182 (1962). Also,
"[t]he court should freely give leave when justice so requires." Fed. R Civ.
P. 15(a). The application of Neb.Rev.Stat. § 29-3001 et seq. (Nebraska Post­
conviction Act) is unreasonable without the liberal civil pleading rules, and
thus violates Buttercase's federal constitutional due process and equal
protection rights.
It is well recognized that states are not obligated to provide a postconviction relief procedure. State v. Lotter, 278 Neb. 466 (2009). See also,
Murray v. Giarrantano, 492 U.S. 1, 10 (1989). However, a state may erect
reasonable procedural requirements for triggering the right to an adjudication,
be they statute of limitations or in an appropriate case, filing fees, and
state accords due process when it terminates claim for failure to comply with
reasonable procedural or evidentiary rule; what Fourteenth Amendment does
require, however, is opportunity granted at meaningful time and in meaningful
manner, (emphasis added). Logan v. Zimmerman Brush Co • t 455 U.S. 422, 437
(1982). Since Nebraska has a postconviction relief procedure, its procedural
or evidentiary rules must be reasonable to accord due process of law.
Ordinarily, violation of firmly established and regularly followed state
rules will be adequate to foreclose review of a federal claim in a state case;
20

however/ there are exceptional cases which exorbitant application of a
generally sound rule renders the state ground inadequate to stop consider­
ation of a federal question. Lee v. Kemma/ 534 U.S. 362/ 376 (2002). This
Court also held "Whatever springes the State may set for those who are
endeavoring to assert rights that the State confers, the assertion of federal
rights, when plainly and reasonably made, is not defeated under the name of
local practice." Davis v. Wechsler, 263 U.S. 22, 24 (1923) (Holmes, J). The
state-law procedures for postconviction relief in Nebraska are inconsistent
with traditional principles of justice and recognized principles of funda­
mental fairness, and thus violates Buttercase's federal due process and equal
protection rights. The Nebraska Supreme Court's abolishment of liberal civil
pleading rules to postconviction relief procedures is contrary to this Court's
precedent and renders the Nebraska Postconviction Act unconstitutional. The
Nebraska Supreme Court exercised its discretion in this case in an unfair
manner.
Certorari should be granted to address whether the postconviction relief
procedures in Nebraska are inadequate under the dye process clause of the
Fourteenth Amendment. This Court's discretionary intervention is necessary
to address this important issue that will undoubtedly recur in future cases.

Ill.

CERTIORARI SHOULD BE GRANTED TO ADDRESS WHETHER THE
FOURTEENTH AMENDMENT PROHIBITS STATE COURTS FROM
HOLDING PRO SE POSTCONVICTION MOVANTS TO THE SAME
STRINGENT STANDARDS AS ATTORNEYS.

The manner in which the Nebraska Supreme Court evasively refused to address
the merits of Buttercase's claim concerning the district court's determination
in denying his motion to vacate (postconviction relief) "lack substance" and
is "not procedurally correct" (T488), implicates substantial constitutional
21

concerns under the Fourteenth Amendment. This Court should intervene to
address whether the due process clause prohibits state courts from holding
a pro se postconviction movant to the same standard as one who is represented
by counsel. See, Erickson v. Pardus, 551 U.S. 89 (2007) (PER CURIAM). This
Court has held that "[a] document filed pro se is to be liberally construed,
and a pro se complaint, however inartfully pleaded, must be held to less
stringent standards than formal pleadings drafted by lawyers." Id • / 551 U.S.
at 94; citing Estelle v. Gamble, 429 U.S. 97, 106 (1976). The Eighth Circuit
Court of Appeals has also held that "[p]ro se habeas filings are to construed
liberally." Earl v. Fabian, 556 F.3d 717, 723 (8th Cir.2009), which is
equivalent to Buttercase's motion to vacate (postconviction relief) (T31-317).
The Nebraska Supreme Court has held that [a] pro se postconviction movant
is held to the same standard as one who is represented by counsel. State v.
Marshall, 272 Neb. 924 (2007), which is contrary to this Court's holdings in
Erickson and Estelle, supra. In 2011, the Nebraska Legislature enacted a one
year statute of limitations for filing a verified motion for postconviction
relief. Laws 2011, LB 137, § 1, effective August 27, 2011. See, Neb.Rev.Stat.
§ 29-3001(4). Most convicted prisoners cannot afford to hire postconviction
counsel to objectively evaluate the trial errors from their conviction.
Consequently, most prisoners must learn legal procedures, case law (and its
application to the individual prisoner's circumstances), and then must apply
what was learned to a cogent motion for postconviction relief before the lapse
of the 1-year statute of limitations. The state-law procedures of holding a
pro se postconviction movant in Nebraska to the same stringent standards as an
attorney is inconsistent with traditional principles of justice and recognized
principles of fundamental fairness, and thus violates Buttercase's federal due
22

process rights. Law students do not even gain the knowledge to perfect a post­
conviction relief petition in their first year of study, whereas convicted
prisoners with often limited education must do so.
This Court held in Kimmelman v. Morrison, 477 U.S. 365, 378 (1986), that
"[a] layman will ordinarily be unable to recognize counsel's errors and. to
evaluate counsel's professional performance, consequently a criminal defendant
will rarely know that he has not been represented competently until after trial
or appeal, usually when he consults another lawyer about his case." (citations
omitted). The state-law postconviction relief procedures in Nebraska are
unquestionably contrary to the fundamental principles of fairness and violates
convicted prisoners, such as Buttercase, federal constitutional rights to due
process of law, as guaranteed by the Fourteenth Amendment to the United States
Constitution. Even Buttercase's first motion for postconviction relief, drafted
and filed by retained counsel, was determined by the Nebraska courts to be
inadequate. See, State v. Buttercase, No. A-15-987, 2017 WL 6016428 (Neb.App.
2017). The Nebraska Supreme Court's avoidance to address the merits of this
claim undermines the integrity of the criminal justice system and, if left
undisturbed, will result in a constitutionally intolerable conviction and the
the most egregious of all situations—the conviction of an innocent man. A
writ of certiorari should issue on this basis.

23

CONCLUSION

For the foregoing reasons, the petition for a writ of certiorari should
be granted.
Respectfully submitted,

tfosefph J.^uttercase #76999
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER
November 19, 2020

24

No.

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH J. BUTTERCASE,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEBRASKA SUPREME COURT

APPENDIX

Joseph J. Buttercase
76999
pro se Petitioner
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161

APPENDIX

